Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

,0

1 ff*

-597%

No.

IN THE SUPREME COURT OF THE UNITED STATES

Rebekah A. Atkins,
Petitioner,
V.

Sherry Brown, et. al,.
Respondent,

Supreme C 0urt, U.S.
FILED

JUL 2 2 2020
g^EOFTHECLE^

On Petition For A Writ Of Certiorari To The United States
Court Of Appeals For The Seventh Circuit

PETITION FOR WRIT OF CERTIORARI

Respectfully submitted,

Rebekah A, Atkins
Signed: 18&1

LA

U

Sui Juris, July 22nd 2020
Pro Se, Rebekah A. Atkins
5017 E. Tunnel Rd
Marengo, IN 47140
E-maiPrael22a@aol.com,
Tel: 812-365-9708
Petitioner
Pro Se Filing Party

l

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

QUESTION(S) PRESENTED
1. Can Indiana State Trooper do alleged traffic enforcement in an unmarked car?
2. Can Indiana post Alleged Speed limit sign of 55mph; not posted in compliance with an
engineer traffic study proceeding within 5 years of April 2018?
3. Can Indiana Superior Court Judge ignore and refuse to recognize Plaintiff-State of
Indiana by Deputy Prosecutor June 25th 2018, filed written Motion to Dismiss?
"Fundamentally, the judge has no authority to 'deny,' the commonwealth's entry of a
noelle prosequi, " Gaziano wrote, referring to the legal term to abandon charges. "The
prosecutor's sole authority to determine which cases to prosecute, and when not to
pursue a prosecution, has been affirmed repeatedly by this court since the beginning of
the 19th century." https'//news.vahoo. com/straisht-pride -parade-fallout-boston 202246634.html
4. Can the State of Indiana by Judge Claypool find Ms. Atkins indigent on July 27th 2018,
on a June 25th 2018, dismissed allegation?
5. Can the Indiana Supreme Court & Court of Appeals refuse to allow Ms. Atkins’s
interlocutory appeal as a matter of rights?
6. Can Judge Claypool issue a False conviction on August 7th 2018, against Ms. Atkins?
7. Can Judge Claypool commit Due process violations by the State of Indiana & court
violating Ms. Atkins’s US constitutional rights?
8. Indiana Supreme Court & Court of Appeals refused to allow Ms. Atkins to appeal nor
did they enforce the laws, rules and printed policies on the Trial Court.
9. Can the Indiana Supreme Court refuse to grant Ms. Atkins’s Original Actions-writ of
mandamus and prohibition as a matter of her rights?
10. Can the Indiana Supreme Court refuse to enforce their own order of appointment of
Special Judge Evans in this matter?
11. Can the Indiana state court(s) deny Ms. Atkins’s rights & due process - no discoveryno evidence-no jury-no nature of allegation of charges produced so Ms. Atkins could
understand what the court was bringing against Ms. Atkins, No attorney appointed, no
continuances granted and court did not allow Ms. Atkins any ability to be able to
prepare a defense?
12. Can the Indiana State courts refuse to recognize any court case laws and operate
within the laws and US Constitution and Indiana Constitution?
13. Can the Indiana Supreme Court have trial courts-Harrison Superior Court charge
upwards of $200.00- on an Indiana 2011, law that the trial courts cannot exceed a total
fine of $35.50 per traffic speeding infraction?
14. Can Harrison Superior Court under the Indiana Supreme Court commit against Ms.
Atkins; False Suspension of Ms. Atkins’s Driver’s license based on fraud and over 287
days outside the State of Indiana Statute of Limitations of 10 days first false-illicit
claim of FTA then 2nd false-illicit claim FTP?
15. Can Harrison Superior court contrary to! US Constitution-bill of rights- article 1
section 9, states! no bill of attainders?
16. Can the State of Indiana seize & suspend Ms. Atkins’s driver’s license without due
process?
17. Can the State of Indiana falsely thereby imprison Ms. Atkins at home without due
Process; In direct violation of the US Constitutional Protections?

a

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

18. Can Harrison County Clerk’s Office on or about June 5th 2019, have State of IndianaBMV suspend Ms. Atkins’s Driver’s License on a false & fictitious claim of FTP-failure
to pay! and the State of Indiana held Ms. Atkins hostage under threat of kidnapping if
Ms. Atkins does not pay an alleged DEBT--RANSOM of $192.00; when the State of
Indiana Legislatures in 2011, made a speeding infraction only $35.50 total-max; to stop
the monetary incentive of the courts?
19. Can the State of Indiana by the so named individuals in their personal and official
capacity conspire against Ms. Atkins to deprive her of her Federal & US Constitutional
Rights to travel in her personal vehicle on and upon the public highways to go
shopping, tend to her personal affairs and to be able to attend her own doctors/medical
appointments?
20. Can the State of Indiana by the so named individuals in their personal and official
capacity conspire against Ms. Atkins to kidnap her-hold her under false imprisonment
in some county jail-steal her identity and sue the government in courts to falsely obtain
money for the very crimes they commit against her and for false crimes they alleged
are/were committed against her?
21. Can the State of Indiana via its’ courts force Ms. Atkins to use Ms. Atkins’s SSA
disability benefits to pay 192.00 +3% credit card charge $197.76 total! when by the
Social Security Act; No Courts can seize SSA benefits and deprive a disabled indigent
person of their public benefits?
22. Can Marion County Courts refuse to allow Ms. Atkins’s Petitions for Judicial Review
against BMV and attempt to charge contempt of court-jail-arrest Ms. Atkins for daring
to file?
23.1s the US Supreme Court going to participate in the theft of Petitioner’s Identity; or is
the US Supreme Court going to step up and enforce the laws, US constitution, common
sense & decency, rules and the rights of Petitioner in this matter?
24. Can Judge Claypool sign & issue nunc pro tunc orders! Contrary to State court rules
and federal court rules? “{(*SO ORDERED this 26th day ofJune, 2018 and signed nunc
pro tunc this 12th, day of July, 2018. *)}”

3

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

PARTIES TO THE PROCEEDING AND RELATED CASES
Petitioner Rebekah A. Atkins was the applicant-plaintiff in the US District Court
for the Southern District of Indiana-New Albany Division and the defendant plaintiffappellant in the courts below.
Respondents, was the defendant-appellee in the courts below.
In the United States District Court-Southern District of Indiana- New Albany
Division this action was CASE #• No. 4-19-CV-00167-SEB-DML judgement entered August
2nd 2019.
In the United States Court of Appeals for the Seventh Circuit- No. 19-2705.
judgement entered May 11th 2020.
Parties to the Litigation Appearing in Their Official Capacity
Joseph Claypool, Elected Judge of Harrison Superior Court.
Sherry Brown, Elected Clerk of Harrison County, Indiana.
John Evans, Elected Judge of Harrison Circuit Court.
Joshua Otto Schalk, Elected Prosecutor of Harrison County, Indiana
Peter Lacy, Appointed Commissioner thereof BMV-Bureau of Motor Vehicles-Indianapolis,
Indiana-Marion County.
Chief Justice Loretta H. Rush (108) [November 7, 2012 -]
Justice Steven H. David (l06)[October 18, 2010 -]
Justice Mark S. Massa (107)[April 2, 2012 -]
Justice Geoffrey G. Slaughter (l09)[June 13, 2016 -]
_______ ____ _____ ____ ______ _
Justice Christopher M. Goff (110) [July 24, 2017 -j Thereof Indiana Supreme Court.
Curtis T. Hill, Elected Attorney General of Indiana
RELATED CASES
State of Indiana!
httpsV/public.courts.in.gov/mvcase/#/vw/Search
Rebekah Atkins v. Crawford County Clerk, et al.l9A-MI-01975j Rebekah Atkins v. State
of Indiana 19A-IF01818; Rebekah A Atkins v. State of Indiana, Bureau Of Motor Vehicles
49D13-1907-MI 028616; State of Indiana ex rel. Rebekah Atkins v. Harrison Superior
Court, et al. 19S-OR-00414; State of Indiana ex rel. Rebekah Atkins v. Marion Circuit
Court, et al. 19SOR-00415; Rebekah Atkins v. State of Indiana 19A-IF-00952; State of
Indiana ex rel. Rebekah Atkins, et al. v. Orange Circuit Court, et al. 19S-OR-00074,' State
of Indiana ex rel. Rebekah Atkins v. Harrison Superior Court, et al. 19S-OR-00070; In re
the Matter of Rebekah A. Atkins 19A-MI-00062; Miscellaneous Estate: Rebekah Atkins
18A-EM-02990; Rebekah Atkins v. Unknown 18A-MI-02832; Rebekah Atkins v. Steven
Ripstra, et al. 18A-MI-02491! Rebekah Atkins v. State of Indiana 18A-IF-02497; In the
Matter of Rebekah A. Atkins 18A-MI-02357; IN RE THE MATTER OF REBEKAH A.
ATKINS, (DIRECT CONTEMPT) 59C01-1808-MI-000246; Rebekah Atkins v. Unknown
22D03-1808-MI-001176; Atkins, Rebekah V Risptra, Blazey, Wahl, Birk J, Ag Hill,
4

}

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

Nordhoff Jr. 19D01-1808-MI-000559J Rebekah Anna Atkins v. Unknown 18A-MI-02026;
Rebekah A. Atkins 10C01-1807-EM-000073; Rebekah Atkins v. State of Indiana 18A-IF01844)' Rebekah Anna Atkins v. Unknown 82D03-1807-MI-003899; Rebekah Atkins v.
Unknown Respondents 18A-MI-016915 Rebekah Atkins v. Unknown Parties 18A-MI01690; State of Indiana v. Rebekah A Atkins 31D01-1804-IF-000478; State of Indiana ex
rel. Rebekah Atkins v. Dubois County Circuit Court, et al.l8S-OR-00246>' State of Indiana
ex rel. Rebekah Atkins v. Orange County Circuit Court, et al.l8S-OR-00243>' In Re:
Records Request, Petitioner Rebekah A. Atkins 31C01-1803-MI-000023I Atkins V.
Unknown Respondents 19C01-1803-MI-000162; Atkins, Rebekah, Et Al. V. Unknown
Parties 19C01-1803-MI-000161; In Re: Records Request, Petitioner Rebekah A. Atkins
31C01-1709-MI-000098; In the Matter of: State of Indiana v. Ivan W. Atkins, et al. 13A011505-MI-00569; ST V REBEKAH A ATKINS 22E01-0108-IF-05691; State of Indiana vs.
Rebekah A Atkins 31D01-0108-IF-002921; State of Indiana vs. Rebekah A Atkins 31D010108-DF-000695; State of Indiana vs. Rebekah A Atkins 31D01-0107-IF-002561; State of
Indiana vs. Rebekah Atkins 31D01-0104-DF-000252; State of Indiana vs. Rebekah A
Atkins 31D01-9706-IF-001685; State of Indiana vs. Rebekah A Atkins 31D01-9706-IF001704; State of Indiana vs. Rebekah A Atkins 31D01-9706-IF-001562; State of Indiana
vs. Rebekah A Atkins 10C03-9703-IF-002964; State of Indiana vs. Rebekah A Atkins
10C03-9703-IF-002693; State of Indiana vs. Rebekah Atkins 10C03-9703-IF-002793; State
of Indiana vs. Rebekah A Atkins 31D01-9702-CM-000101; State of Indiana vs. Rebekah A
Atkins 31D01-9701-CM-000026; State of Indiana vs. Rebekah A Atkins 10C03-9611-IF013239; State of Indiana vs. Rebekah A Atkins 31D01-9607-IF-002359; State of Indiana
vs. Rebekah A Atkins 31D01-9606-IF-001630; State of Indiana vs. Rebekah Atkins 31D019604-IF-000895; State of Indiana vs. Rebekah A Atkins 31D01-9604-CM-000214; ST V
REBEKAH ATKINS 22E01-9603-CM-00457; State of Indiana vs. Rebekah A Atkins
31D01-9603-IF-000614; In the Matter of: Rebekah Atkins and the Crawford County Clerk,
Crawford Circuit Court, and Crawford County Judicial Complex 13C01-1907-MI-000015;
https://publicaccess.courts.in.gov/docket/
Rebekah A. Atkins v. State of Indiana And Bmv 19S-SJ'00578; Rebekah Atkins v. State of
Indiana, et al. 19S-SJ-00598; In The Matter of Rebekah Atkins And Crawford County
Clerk, et al. 19S-SJ-00576; State of Indiana v. Rebekah A. Atkins 19S-SJ-00317! State of
Indiana v. Rebekah Atkins 19S-SJ-00421; In The Matter of Rebekah Atkins 19S-SJ-0009;
Rebekah A. Atkins v. Unknown Party 19S-SJ-00093; Rebekah Atkins v. Steven Earl
Ripstra, et al. 19S-SJ-00084; Rebekah Atkins v. Orange Circuit Court, et al. 19S-SJ00085; In The Matter of Rebekah A. Atkins 19S-SJ-00022; State of Indiana v. Rebekah
Atkins 19S-SJ-00020; Rebekah Atkins v. Unknown Parties 18S-SJ-00236; Rebekah
Atkins v. Unknown Parties 18S-SJ-00234; Rebekah Atkins v. Unknown Parties 18S-SJ00235; Matter of Appointment of A Judge Pro Tempore Harrison Superior Court 19S-MS00408; In The Matter of The Appointment of Judge Pro Tempore In Crawford Circuit
Court 13S00-1510-MS-00611;
&* Unknown to Ms. Atkins and with neither her knowledge, participation nor permission
numerous impermissible, illicit & fictitious State & Federal sealed court cases/records.
5

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

Federal Cases!
7th Court of Appeals Docket #■ 18-2007 Docketed: 05/03/2018
l:02cv-01961"SEB-MJD
4:02-cv-00129-SEB-DML
4:02-cv-00130-SEBTAB
4:02-cv-00214-RLY-TAB
4:03-cv-00010-RLY-TAB
U.S. District Court
Southern District of Indiana (New Albany)
CASE#: 4:18-cv-00180-SEB-DML
CASE #: 4:l9-cv-00167-SEB-DML
2020, 7th Circuit Judicial Council! Judicial Misconduct complaint Nos. 07-20-90021
through 07-20-90042 & Judicial Misconduct complaint No. 07-20-90051.
Docketed: 05/10/2018
5th Court of Appeals Docket#: 18*50385
Case Number: i:97-cv-00650-SS Atkins v. Richards
2020, 5th Circuit Judicial Council! Judicial Misconduct Complaints-Numbers: 05-20-90065
through 05-20-90100 & Judicial Misconduct Complaint-Number: 05-20-90105.

6

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

TABLE OF CONTENTS
1

Cover
QUESTIONS PRESENTED

2,3

PARTIES TO THE PROCEEDING AND RELATED CASES

4, 5,6
7-8

TABLE OF CONTENTS
TABLE OF AUTHORITIES

8

PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW..
.............. ..........

9
9

JURISDICTION.

10

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

10-16

STATEMENT OF THE CASE............................................
Cruel & Unusual Punishment & Deprivation of Life

16-19
19
19

REASONS FOR GRANTING THE WRIT.,

20

CONCLUSION

20

CERTIFICATION

20

CERTIFICATE OF SERVICE
INDEX TO APPENDICES

APPENDIX A
Order, United States Court of Appeals for the Seventh Circuit (May 11th 2020) &
Notice of issuance of Mandate.
APPENDIX B
Order, United States District Court for the Southern District of Indiana New
Albany Division (August 2nd 2019).
APPENDIX C
Indiana Courts’ Orders
APPENDIX D
Ms. Atkins’s Documents, briefs ect...
7

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

TABLE OF AUTHORITIES CITED

28 U.S.C. § 1291, 28 U.S.C. §§ 2106-07
28 U.S. Code § 2255, 28 U.S. Code § 2241, 28 U.S. Code § 2254, 42 U.S. Code § 1985, 42
U.S. Code § 1986, 42 U.S. Code § 1994, 42 U.S. Code § 1988, 28 U.S. Code § 1391, 18 U.S.
Code § 241, 18 U.S. Code § 242, 18 U.S. Code § 245 (E), 18 U.S. Code § 1201, 28 U.S.C. §§
1331 and 1343.
Federal Rule of Appellate Procedure 22: RULE 22. Habeas Corpus and Section 2255
Proceedings (a) Application for the Original Writ.
10
28 U.S.C. § 2253,
10

ORDER LIST: 589 U.S.) THURSDAY, MARCH 19, 2020 ORDER

10, 11
IC 34-28-5-4
U.S. Constitution, Amendment IV, Amendment V, Amendment VI, Amendment VII,
Amendment VIII, Amendment XIV (1868), Section 1. Article I Section 9. Article
11, 12
IV (Article 4 - States' Relations).
13
IC 35-46-1-12................. .
IC 35-42-3-2 Kidnapping, IC 35-42-3-3 Criminal confinement, IC 35-42-3.5-1.4 Human
trafficking, IC 35-42-3.5-1 Promotion of human labor trafficking, IC 35-42-5-1 Robbery,
IC 35-45-2-1 Intimidation, IC 35-43-2-2 Cr iminal trespass; denial of entry; denial by
posting with purple marks; permission to enter; exceptions, IC 35-43-4-2 Theft,
IC 35-43-4-3 Conversion, IC 35-43-5-2 Counterfeiting; false or fraudulent sales receipts;
forgery; application fraud, IC 35-43-5-3 Deception, IC 35-43-5-3.5 Identity deception,
IC 35-43-5-3.6 Terroristic deception, IC 35 :43-5-3.8 Synthetic identity deception,
IC 35-44.1*1-1 Official misconduct, IC 35-44.1-1-2 Bribery, IC 35-44.1-2-2 Obstruction of
justice, IC 35-44.1-2-3 False reporting; false informing, IC 35-45-9-3 Participation in
criminal organization; offense, IC 35-45-10-5 Criminal stalking, IC 35-45-15-5 Money
laundering; defenses, IC 35-46-1-4 Neglect of a dependent; child selling,
IC 35-46-1-12 Exploitation of dependent or endangered adult; financial exploitation of
endangered adult; violation classification, IC 35-46-1*13 Battery, neglect, or exploitation of
endangered adult or person with mental or physical disability; failure to report; unlawful
13
disclosure; referrals; retaliation, IC 35-46-2-1 Violation of civil rights.
Strickler v. Greene, 527 U.S. 263, 280 (1999); United States v. Agurs, 427 U.S. 97 107
(1976). Brady v. Maryland, 373 U.S. 83 (1963); Commonwealth v. Smith, 532 Pa. 177, 615
A.2d 321 (1992). Giglio v. United States, 405 U.S. 150 (1972); Commonwealth v. Wallace,
13
500 Pa. 270, 275-76, 455 A.2d 1187 (1983)
United States Court ofAppeals FOR THE DISTRICT OF COLUMBIA CIRCUIT Argued
June 12, 2020 Decided June 24, 2020 No. 20-5143 IN RE- MICHAEL T. FLYNN........14, 15
15, 16

IC 33-37-5-22 & IC 33-37-2-3;
IC 9-30-2-2................................

16
8

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

PETITION FOR WRIT OF CERTIORARI
Ms. Atkins has exhausted to the best of her knowledge and ability all other avenues
there is no other legal recourse or remedy she knows of by law and Ms. Atkins
understands the US Supreme Court has extended the Time Frame to 150 days to file.
United States Seventh Circuit Court of Appeals, US District Court, Indiana
Supreme Court-Indiana Court of Appeals is illicitly & erroneously denying
Petitioner of the protection and due process of the U.S. Constitution, Americas’
Laws, rules & policies and the Laws of the State of Indiana ect..
The 7th Circuit Court of Appeals utterly failed to appropriately address the
issues Petitioner has raised in her Habeas Corpus filing against the State of
Indiana, BMV, Indiana Supreme Court, & Harrison County Superior-Circuit
Court- Clerk Sherry Brown and Indiana AG.
The 7th Circuit Court of Appeals utterly failed to hold the Indiana StateCourt officials accountable and in compliance with the Social Security Act, Laws,
Rules, Regulations, US constitution and the 7th Circuit Appeals Court’s very own
previous Case Laws regarding blatant misconduct by State officials.
The 7th Circuit Court of Appeals appears to erroneously declare several
issues Petitioner has raised as not being Jurisdiction of the Courts.
When all Petitioner’s issues with State of Indiana Court officials are
relevant and appropriately brought to the Court(s) and now to the U.S. Supreme
Court and are properly under the Jurisdiction of this Court to address the
failures of State of Indiana Court officials to abide and operate within the legal
frame work of the requisite laws in State of Indiana Court officials’ denial of due
process to Petitioner; whilst appears State of Indiana Court officials continues to
knowingly & deliberately partake in the theft of Petitioner’s identity to do ID
theft and lawsuits Scams both in the State of Indiana and Federal Courts in/with
Petitioner ID with neither Petitioner’s knowledge nor permission.
Petitioner respectfully prays that a writ of certiorari issue to review the judgment(s)
below.
OPINIONS BELOW
For cases from federal courts^ The opinion of the United States court of appeals
appears at Appendix A to the petition and is unpublished.
The opinion of the United States district court appears at Appendix B to the
petition and is unpublished.
The decisions of the Indiana State Supreme Court & court of appeals are
reproduced in the Appendix at App. C.

9

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

JURISDICTION
For cases from federal courts:
In the United States Court of Appeals for the Seventh Circuit-. No petition for
rehearing was filed in Petitioner’s case; as was quite apparent the entire 7th Circuit Court
is hostile and adverse toward Petitioner. A petition for rehearing would not change the
outcome/decision/order only cost more time delay of justice & due process being withheld
from Petitioner.
The jurisdiction of the United States Court of Appeals for the Seventh
Circuit is brought under 28 U.S.C. § 1291, 28 U.S.C. §§ 2106-07 in that this is an
appeal from a final decision of the United States District Court for the Southern District of
Indiana seeking to reverse the Judgment of the District Court’s denial & dismissal of
plaintiffs Habeas Corpus filed against the State of Indiana 28 U.S. Code § 2255, 28 U.S.
Code § 2241, 28 U.S. Code § 2254, 42 U.S. Code § 1985, 42 U.S. Code § 1986, 42 U.S.
Code § 1994, 42 U.S. Code § 1988, 28 U.S. Code § 1391, 18 U.S. Code § 241, 18 U.S.
Code § 242, 18 U.S. Code § 245 (E), 18 U.S. Code § 1201, 28 U.S.C. §§ 1331 and 1343.
Federal Rule of Appellate Procedure 22: RULE 22. Habeas Corpus and Section 2255
Proceedings (a) Application for the Original Writ.
An application for a writ of habeas corpus must be made to the appropriate district court.
The applicant may, under 28 U.S.C. § 2253, appeal to the court of appeals from the district
court's order denying the application.
(b) Certificate of Appealability.
(l) If the district judge has denied the certificate, the applicant may request a circuit judge
to issue it.
(2) A request addressed to the court of appeals may be considered by a circuit judge or
judges, as the court prescribes. If no express request for a certificate is filed, the notice of
appeal constitutes a request addressed to the judges of the court of appeals.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).
(ORDER LIST: 589 U.S.) THURSDAY, MARCH 19, 2020 ORDER In light of the ongoing
public health concerns relating to COVID19, the following shall apply to cases prior to a
ruling on a petition for a writ of certiorari: IT IS ORDERED that the deadline to file any
petition for a writ of certiorari due on or after the date of this order is extended to 150
days from the date of the lower court judgment, order denying discretionary review, or
order denying a timely petition for rehearing. See Rules 13.1 and 13.3.

CONSTITUTIONAL AND ST ATUTORY PROVISIONS INVOLVED
IC 34-28-5-4 Costs; deposit of funds; findin gs required for judgment; special provisions for
moving violations
10

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

(£) Except as provided in subsections (g) and (h), a person who has admitted to a moving
violation constituting a Class C infraction, pleaded nolo contendere to a moving violation
constituting a Class C infraction, or has been found by a court to have committed a moving
violation constituting a Class C infraction may not be required to pay more than the
following amounts for the violation:
(1) If, before the appearance date specified in the summons and complaint, the person
mails or delivers an admission of the moving violation or a plea of nolo contendere to the
moving violation, the person may not be required to pay any amount, except court costs
and a judgment that does not exceed thirty-five dollars and fifty cents ($35.50).
(2) If the person admits the moving violation or enters a plea of nolo contendere to the
moving violation on the appearance date specified in the summons and complaint, the
person may not be required to pay any amount, except court costs and a judgment that
does not exceed thirty-five dollars and fifty cents ($35.50).
(3) If the person contests the moving violation in court and is found to have committed the
moving violation, the person may not be required to pay any amount, except:
(A) court costs and a judgment that does not exceed thirty-five dollars and fifty cents
($35.50) if, in the five (5) years before the appearance date specified in the summons and
complaint, the person was not found by a court in the county to have committed a moving
violation!
In a proceeding under subdivision (3), the court may require the person to submit an
affidavit or sworn testimony concerning whether, in the five (5) years before the
appearance date specified in the summons and complaint, the person has been found by a
court to have committed one (l) or more moving violations.

US. Constitution
Amendment TV
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
warrants shall issue, but upon probable cause, supported by oath or affirmation,
and particularly describing the place to be searched, and the persons or things to
be seized.
Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in actual service in time of war or
ll

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

202:0

public danger', nor shall any person be subject for the same offense to be twice put
in jeopardy of life or limbi nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law', nor shall private property be taken for public use, without just
compensation.
Amendment VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the state and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation,' to be
confronted with the witnesses against him,' to have compulsory process for
obtaining witnesses in his favor, and to have the assistance of counsel for his
defense.
Amendment VII
In suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury,
shall be otherwise reexamined in any court of the United States, than according
to the rules of the common law.
Amendment VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.
Amendment XIV (l868)
Section 1. All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein
they reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States,' nor shall any state
deprive any person of life, liberty, or property, without due process of law', nor
deny to any person within its jurisdiction the equal protection of the laws.
US. Constitution
Article I
Section 9.
3. No bill of attainder or ex post facto Law shall be passed.
ArticleIV(Article 4 - States'Relations)
Section 1
Full Faith and Credit shall be given in each State to the public Acts, Records, and
judicial Proceedings of every other Sta te. And the Congress may by general La ws
prescribe the Manner in which such Acts, Records and Proceedings shall be proved,
and the Effect thereof.
Section 2
1: The Citizens of each State shall be entitled to all Privileges and Immunities of
Citizens in the several States.

12

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

IC 35-46-1-12 Exploitation of dependent or endangered adult; financial exploitation of
endangered adult; violation classification
Sec. 12. (a) Except as provided in subsection (b), a person who recklessly, knowingly, or
intentionally exerts unauthorized use of the personal services or the property of
(1) an endangered adult; or
(2) a dependent eighteen (18) years of age or older;
for the person's own profit or advantage or for the profit or advantage of another person
commits exploitation of a dependent or an endangered adult, a Class A misdemeanor.
(c) Except as provided in subsection (d), a person who recklessly, knowingly, or
intentionally deprives an endangered adult or a dependent of the proceeds of the
endangered adult's or the dependent's benefits under the Social Security Act or other
retirement program that the division of family resources has budgeted for the endangered
adult's or dependent's health care commits financial exploitation of an endangered adult
or a dependent, a Class A misdemeanor.
It appears the State of Indiana Court officials is in direct violation of and did deliberately,
knowingly, intentionally, willfully & recklessly commit the following crimes against Ms.
Atkins^
IC 35-42-3-2 Kidnapping, IC 35-42-3-3 Criminal confinement, IC 35-42-3.5-1.4 Human
trafficking, IC 35-42-3.5-1 Promotion of human labor trafficking, IC 35-42-5-1 Robbery,
IC 35-45-2-1 Intimidation, IC 35-43-2-2 Criminal trespass; denial of entry; denial by
posting with purple marks! permission to enter! exceptions, IC 35-43-4-2 Theft,
IC 35-43-4-3 Conversion, IC 35-43-5-2 Counterfeiting; false or fraudulent sales receipts!
forgery; application fraud, IC 35-43-5-3 Deception, IC 35-43-5-3.5 Identity deception,
IC 35-43-5-3.6 Terroristic deception, IC 35 43-5-3.8 Synthetic identity deception,
IC 35-44.1-1-1 Official misconduct, IC 35-44.1-1-2 Bribery, IC 35-44.1-2-2 Obstruction of
justice, IC 35-44.1-2-3 False reporting! false informing, IC 35-45-9-3 Participation in
criminal organization! offense, IC 35-45-10-5 Criminal stalking, IC 35-45-15-5 Money
laundering; defenses, IC 35-46-1-4 Neglect of a dependent; child selling,
IC 35-46-1-12 Exploitation of dependent or endangered adult; financial exploitation of
endangered adult; violation classification, IC 35-46-1-13 Battery, neglect, or exploitation of
endangered adult or person with mental or physical disability; failure to report; unlawful
disclosure; referrals! retaliation, IC 35-46*2-1 Violation of civil rights.
"The law requires the prosecution to produce Brady and Giglio material whether or not the
defendant request any such evidence. Strickler v. Greene, 527 U.S. 263, 280 (1999); United
States v. Agurs, 427 U.S. 97 107 (1976). The Due Process Clause of the Fourteenth
Amendment to the United States Constitution and Article One, Section Nine of the
Pennsylvania Constitution require a prosecutor to disclose exculpatory evidence to the
defense. Brady v. Maryland, 373 U.S. 83 (1963); Commonwealth v. Smith, 532 Pa. 177,
615 A.2d 321 (1992). Under Brady and its orogeny, the prosecutor has a duty to correct
false or misleading evidence that is harmful to the defendant. Giglio v. United States, 405
U.S. 150 (1972); Commonwealth v. Wallace, 500 Pa. 270, 275-76, 455 A.2d 1187 (1983).
13

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

h ttpsV/news. yahoo, com/flvnn-urges -a nDeals -court -en d'l 70332052. h tml
https://www.politico.coni/news/2020/06/24/dc-circuit-orders-flvnn -judge-to-dismiss -charges 337751
The majority opinion, penned by Trump appointee Neomi Rao, said allowing the case to
continue would intrude on the executive branch’s prerogatives to control criminal
prosecutions.
“Each of our three coequal branches should be encouraged to self-correct when it errs. If
evidence comes to light calling into question the integrity or purpose ofan underlying
criminal investigation, the Executive Branch must have the authority to decide that
further prosecution is not in the interest ofjustice, ” Rao wrote.
US. District Court District of Columbia (Washington, DC) CRIMINAL DOCKET FOR
CASE#: Vl7-cr-00232-EGS-l
United States Court ofAppeals FOR THE DISTRICT OF COLUMBIA CIRCUIT
Argued June 12, 2020 Decided June 24, 2020 No. 20-5143 IN RE: MICHAEL T. FLYNN,
PETITIONER
“decisions to dismiss pending criminal charges—no less than decisions to initiate charges
and to identify which charges to bring—lie squarely within the ken ofprosecutorial
discretion.” United States v. Fokker Servs. B.V., 818 F.3d 733, 742 (D.C. Cir. 2016). “To
that end, the Supreme Court has declined to construe Rule 48(a)’s ‘leave of court’
requirement to confer any substantial role for courts in the determination whether to
dismiss charges.” Id.i see also Newman v. United States, 382 F.2d 479, 480 (D.C. Cir.
1967) (“Few subjects are less adapted to judicial review than the exercise by the Executive
ofhis discretion in deciding... whether to dismiss a proceeding once brought. ”). The
Judiciary’s role under Rule 48 is thus confined to “extremely limited circumstances in
extraordinary cases.” United States v. Hamm, 659 F.2d 624, 629 (5th Cir. 1981); United
States v. Ammidown, 497F.2d 615, 621 (D.C. Cir. 1973) (emphasizing that Rule 48
motions must be granted “in the overwhelming number of cases”). More specifically, “[tjhe
principal object of the ‘leave of court’requirement is ... to protect a defendant against
prosecutorial harassment... when the Government moves to dismiss an indictment over
the defendant’s objection.” Rinaldi v. United States, 434 U.S. 22, 29 n.15 (1977). Rule 48
thus “gives no power to a district court to deny a prosecutor’s ... motion to dismiss charges
based on a Case l'-l 7-cr-00232-EGS Document 233-1 Filed 06/24/20 Page 5 of 38 6
disagreement with the prosecution’s exercise of charging authority.” Fokker Servs., 818
F.3d at 742.1
These clearly established legal principles and the Executive’s “long-settled primacy over
charging decisions, ” Fokker Servs., 818 F.3d at 743, foreclose the district court’s proposed
scrutiny of the government’s motion to dismiss the Flynn prosecution. Before this court,
the district judge explains that he plans to “question the bona fides of the government’s
motion, ’’Sullivan Response 29 (quotation marks omitted), “inquire about the government’s
motions and representations, ’’Sullivan Reply 26, “illuminatje] the full circumstances
14

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

surrounding the proposed dismissal,” id. at 12, and probe “whether the presumption of
regularity for prosecutorial decisions is overcome” in “the unusual facts of this case,”
Sullivan Response 3. A hearing may sometimes be appropriate before granting leave of
court under Rule 48', however, a hearing cannot be used as an occasion to superintend the
prosecution’s charging decisions, because ‘authority over criminal charging decisions
resides fundamentally with the Executive, without the involvement of—and without
oversight power in—the Judiciary. ’’Fokker Servs., 818 F.3d at 741.
In this case, the district court’s actions will result in specific harms to the exercise of the
Executive Branch’s exclusive prosecutorial power. The contemplated proceedings would
likely require the Executive to reveal the internal deliberative process behind its exercise
ofprosecutorial discretion, interfering with the Article IIcharging authority. Newman,
382 F.2d at 481 (citing United States v. Cox, 342 F.2d 167, 171 (5th Cir. 1965)).
We must also assure ourselves that issuance of the writ “is appropriate under the
circumstances.” Cheney, 542 U.S. at 381. The circumstances of this case demonstrate that
mandamus is appropriate to prevent the judicial usurpation of executive power.
As the Supreme Court has explained, “the capacity ofprosecutorial discretion to provide
individualizedjustice is firmly entrenched in American law. ...
See ICC v. Bhd. ofLocomotive Engineers, 482 U.S. 270, 283 (1987) (“[I]t is entirely clear
that the refusal to prosecute cannot be the subject ofjudicial review. ”)/ Fokker, 818 F.3d at
7431 In re United States, 345 F.3d at 454.
The Executive Branch is not just any “different party, ’’Dissenting Op. 8 (emphasis
omitted), but a coequal branch ofgovernment responsible for prosecutorial decisions. See
Cheney, 542 U.S. at 390 (“As this case implicates the separation ofpowers, the Court of
Appeals must also ask, as part of th[e mandamus] inquiry, whether the District Court’s
actions constituted an unwarranted impairment of another branch in the performance of
its constitutional duties. ”). Therefore, we must consider the irreparable harms to the
Executive in a case such as this, in which the government has moved to dismiss. Cf. Doe v.
Exxon Mobil Corp., 473 F.3d 345, 356-57 (D.C. Cir. 2007) (notingit would be appropriate
to examine separation ofpowers harms to the Executive ifit had joined the petitioner’s
mandamus request or “requested the dismissal of the action” below).
Yet unwarranted judicial scrutiny of a prosecutor’s motion to dismiss places the court in
an entirely different position. Rather than allow the Executive Branch to dismiss a
problematic prosecution, the court assumes the role ofinquisitor, prolonging a prosecution
deemed illegitimate by the Executive. Judges assume that role in some countries, but
Article III gives no prosecutorial or inquisitorial power to federal judges. See id. (“The
judicial power... does not include the power to seek out la w violators in order to punish
them.”); United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020) (“[Cjourts ... do
not, or should not, sally forth each day looldng for wrongs to right. They wait for cases to
come to them.”) (citation and quotation marks omitted). To suggest that judicial dismissal
of an improper prosecution is analogous to the judicial continuation of an improper
prosecution turns the separation ofpowers on its head.
Under IC33-37-5-22 & IC 33-37-2-3/

15

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2:020^

Court vsaives fees, fines and costs for an indigent personan indigent person must not be
required to pay judgement costs.
Indigent’s Right Not to Pay Restitution, Fines and Costs Imposed as a Part of the
Sentence in Criminal Cases The judge may impose restitution, fines and costs as a part of
the judge’s sentencing discretion in a criminal case. Before any of these sanctions may be
imposed, the judge must hold a hearing and take testimony regarding offender's ability to
pay.
Contrary to Indiana State Law trooper Timothy M. Dossett was not in marked police car
when he stopped, detained-arrest Ms. Atkins on April 12th 2018.
IC 9-30-2-2 Uniform and badge/ marked police vehicle
Sec. 2. A law enforcement officer may not arrest or issue a traffic information and
summons to a person for a violation of an Indiana law regulating the use and operation of
a motor vehicle on a highway or an ordinance of a city or town regulating the use and
operation of a motor vehicle on a highway unless at the time of the arrest the officer is(2) operating a motor vehicle that is ciearly marked as a police vehicle;
that will clearly show the officer or the officer's vehicle to casual observations to be an
officer or a police vehicle.
STATEMENT OF THE CASE
The Courts have Systematically denied Petitioner a victim of Identity theft; access
to the courts, due process of the courts, the lawful aid, justice, and assistance of the courts
in this matter in accordance with all the laws of America, US constitution, common sense
& decency, court case laws, and the rules & policies of the guidelines Congress has set for
the operation of the courts for indigent-pro se-sui juris, people needing assistance.
Petitioner was systematically denied legal counsel by the Indiana State Courts.
Petitioner was systematically denied legal counsel by the U. S. District Court. Petitioner
was systematically denied legal counsel by the 7th Circuit Court.
The U. S. Supreme Court needs to address this extremely important and vital
issues of deprivation of legal counsel to disabled victims of identity theft-appears being
done by the Indiana State Courts, U.S. District Court and including the 7th Circuit Court
of Appeals.
On or about April 12th 2018, Ms. Atkins was pulled over by an Indiana State Policetrooper in an unmarked car.
Trooper Dossett’s stop-arrest violates Ms. Atkins U.S Constitution 4th amendment
rights of being secure from unreasonable interference without just cause and due process.

16

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

June 25th 2018, State of Indiana dismissed in writing this cause; Judge Claypool
refused to allow the State’s dismissal.
June 26th 2018, Judge Claypool refused to dismiss. July 12th 2018, Judge Claypool
issued an order nunc pro tunc for June 26th 2018.
July 27th 2018, Judge Claypool found Ms. Atkins indigent.
Judge Claypool denied Ms. Atkins of discovery,evidence, jury trial by her peers, a
court appointed attorney; on August 7th 2018, he summarily claimed Ms. Atkins was guilty
of exceeding 55mph (on an illicitly posted speed sign) without any evidence being
presented in Court and assessed against Ms. Atkins (an indigent-in forma pauperis statusdisabled individual on Social Security and foodstamps) a court fee of $167.00-$35.50 =
$131.50 over the prescribed law on an alleged charge that by Indiana State Law could not
exceed $35.50 and an indigent person could not be demanded by the court to pay these
fees.
The Indiana Supreme Court refused to oversee the judicial misconduct and flagrant
violations of the Harrison Superior Court-trial by Judge Claypool.
The Indiana Supreme Court and the Court of Appeals kept stealing Ms. Atkins’s
filings with the Indiana Supreme Court; both refused to allow Ms. Atkins to appeal Judge
Claypool’s erroneous-illicit judgements.' nor would they make the trial clerk & court
reporters submit the records as required. Appears they fully condoned and participated in
Judge Claypool’s egregious and illicit behavior.
December 2018, the Harrison County Clerk-Sherry Brown demanded payment of
$192.00 on this cause; a cause Judge Claypool had issued an order finding Ms. Atkins
indigent. Clerk Brown threatened Suspension if no payment.
Ms. Atkins filed with the Indiana Supreme Court an Emergency Original Action of
a Writ of Mandamus & Prohibition against Harrison County Superior Court & clerk
Brown. The Indiana Supreme Court refused to accept.
Without any Notice to Ms. Atkins on or about March 22nd 2019, Clerk Brown filed
an illicit & fictitious (FTA) failure to appear-SR-16 without a court order, with Indiana
BMV to suspend Ms. Atkins’s Indiana Driver’s License.
On or about May 28th 2019, the Indiana Supreme Court in Supreme Court Case No.
19S-SJ-317, Trial Court Case No. 31D01-1804-IF-478; issued an “Order Appointing
Special Judge And Directing Filing of Report Under Trial Rule 53.1(F)” removing Judge
Claypool and allegedly appointing Special Judge John Evans of Harrison Circuit Court.
Harrison Superior Court-Judge Claypool & the Clerk Brown refused to serve and/or
turn over Ms. Atkins’s case to SJ Evans and the Indiana Supreme Court refused to enforce
its’ own order.
17

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

Ms. Atkins filed with the Indiana Supreme Court an Emergency Original Action of
a Writ of Mandamus & Prohibition against Harrison County Superior Court & clerk
Brown. The Indiana Supreme Court refused to accept.
April 8th 2019, via US mail Ms. Atkins filed Petition for Judicial Review against
BMV in the Marion County Circuit Court-they flatly refused to file Ms. Atkins’s FTAPetition for Judicial Review of BMVs adverse administrative actions against Ms. Atkins.
Ms. Atkins filed with Marion County Circuit Court a FTP-Petition for Judicial Review of
BMVs adverse administrative actions against Ms. Atkins. Ms. Atkins filed with the
Indiana Supreme Court an Original Action of a Writ of Mandamus & Prohibition against
Marion County Circuit Court.
On July 17th 2019, Marion County Circuit Court-Clerk- filed Ms. Atkins’s
documents,' but did not File and give Ms. Atkins-her Petition for Judicial Review against
BMV,' they created an illicit and fictitious legal title of an Action Ms. Atkins did not file
and was neither appropriate nor lawful.
Marion County Courts refused to allow Ms. Atkins-her Petition for Judicial Review
against BMV as is by law required. They filed-appeared an illicit-fictitious contempt of
court and would have arrested & jailed Ms. Atkins if she appeared in the Fictitious &
Illicit court hearing! therefore Ms. Atkins only option was to file a Motion to Dismiss all
the Court’s pending Actions.
On or about October 2019! The State of Indiana forced Ms. Atkins to use her SSA
disability benefits to pay 192.00 +3% credit card charge $197.76 total! on a dismissed
cause and a cause Ms. Atkins was repeatedly found indigent on.
Please see attachments in App. of Ms. Atkins’s briefs to the Indiana Supreme
Court-Marion County Court-fta-ftp petition for reviews and related materials.
Ms. Atkins understands that she is currently barred from all Courthouses-both
State & Federal due to the fact that Both State and Federal Judges & clerks turn off the
Public Access Terminals located in the clerks’ offices contrary to law to specifically deny
Ms. Atkins of all Access to the Official Court Systems/cases/records ect... As the Courtsboth State and Federal are participating in the Theft of Ms. Atkins’s identity for their own
personal gain! by a monetary scheme of “ID theft and Lawsuits Scams illicitly and
fictitiously hidden under courts’/judges’ seals” with neither Ms. Atkins’s participation,
knowledge nor permission.
That the most horrid and grievous injustice being inflicted against Ms. Atkins by
the State of Indiana thru its’ courts both State and Federal are quite contrary to all
common sense & decency and the US Constitution, Indiana Constitution, laws both State
and Federal, Case Laws, Court Rules both State and Federal! and is being done solely to
build-apparently mega-illicit lawsuits for money for the illicit perpetrators’.
18

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

Ms. Atkins neither has access to the legal research materials she needs; nor access
to legal counsel.
Please see attachments in App. of Ms. Atkins’s briefs to the Indiana Supreme
Court'Marion County Court-fta-ftp petition for reviews and related materials.
Cruel & Unusual Punishment & Deprivation of Life
For the State of Indiana {on a June 25th 2018, State of Indiana Dismissed
allegation*} to seize & suspend Ms. Atkins’s Indiana Driver’s License thereby
imprisoning Ms. Atkins in her home-forbid Ms. Atkins to use her personal
vehicle to travel upon the Public roads & highways to bar & block Ms. Atkins
from tending to her personal needs & affairs & for Ms. Atkins to be able to
obtain her medical needs; under threat of conspiracy that if the State of Indiana
so finds her out and about; that the State of Indiana will KIDNAP her, by
ARMED & DANGEROUS ACTORS OF THE STATE OF INDIANA and FALSELY
place her in a county jail.
The State of Indiana has thereby stripped Ms. Atkins from all equal
protections and deprived Ms. Atkins of life, liberty and property without due
process. Not to mention the Golden Rule; “Do onto others as you would have
them do onto you.”
The State of Indiana is inflicting cruel & unusual punishment upon Ms.
Atkins. The State of Indiana is imprisoning Ms. Atkins for an alleged Debt FOR
RANSOM; that the State of Indiana cannot provide proof that she even owes; as
the State of Indiana, the District Court and all the Indiana Courts has found
that Ms. Atkins is indigent and as such all such court fees, fines ect.. are to be so
waived. And the US Laws & Constitution & Indiana State Laws & Constitution
so state that a person cannot be imprisoned for debt.
REASONS FOR GRANTING THE WRIT
Appears all lower Courts have completely and utterly disregarded all America’s
Laws, Constitution, common sense & decency, the rules and policies that Congress by the
American People established the Courts to operate under.
The Petition for Writ of Certiorari is the only avenue for Petitioner to raise
Petitioner’s issues to the U.S. Supreme Court; the last & highest court of record in
America to address this grievous injustice and injury being committed against Petitioner.
The Court should grant certiorari because the lower courts have not settled, and cannot
settle, these questions on their own. Moreover, clarity in this area is important. The Court
should grant certiorari to clarify these matters as these issues have nationwide impact on
the citizenry of America.
19

Rebekah A. Atkins’s PETITION FOR WRIT OF CERTIORARI

2020

CONCLUSION
The petition for a writ of certiorari should be granted.
Certification
I affirm under the penalties for perjury that the foregoing representations are true
to the best of my knowledge and ability.
Respectfully submitted,

Rebekah A. Atkins

Signed: IfeE

d

LA

Sui Juris, July 22nd 2020

Certificate of Service
I hereby certify that on this 22nd day of July, the year of 2020, the foregoing document is
filed via U.S. mail postage prepaid; Cler k’s Office Supreme Court of the United States
One First Street, NE Washington, DC 20543
And in compliance with F.R.A.P Rule 25 served via E- mail on the attorneys
representing the Social Security Administration; Solicitor General United States
Department of Justice
950 Pennsylvania Avenue, NW Washington, DC 20530-0001,
SupremeCtBriefs@USDOJ.gov.
And Via E-mail with the Harrison County Superior Court 1445 Gardner Lane NW
Suite 3018 Corydon, IN 47112. Via email to Superior Court;C/0;
iennvw@harrisoncountv.in.gov, & sherrvbrown@harrisoncountv.in.gov. Prosecutor. Otto
Schalk via email; Oschalk@harri.soncountv.in.gov.
Attn: Peter Lacy, Commissioner Indiana Bureau of Motor Vehicles 100 North
Senate Avenue, Indianapolis, IN 46204; bmvcourts@bmv.in.gov.
bmvhearings@bmv.in.gov.
Attn: Curtis T. Hill, Attorney General of Indiana & Deputy Attorney General
Andrew Kobe Office of the Attorney General, IGCS, 5th Floor 302 West Washington Street
Indianapolis, IN 46204-2794! Andrew.Kobe@atg.in.gov. douglas.swetnam@atg.in.gov.
ATTN: MARION COUNTY PROSECUTOR - TERRY CURRY 251 E. Ohio Street,
Suite 160 Indianapolis, IN 46204-2175. MCPO@indv.gov. Andrew.Fogle@indy.gov,
Respectfully submitted,

Rebekah A. Atkins

Signed: 7R&1

ft
/
L

[ &■ MA
Sui Juris, July 22nd 2020
Pro Se, Rebekah A. Atkins
5017 E. Tunnel Rd
Marengo, IN 47140
E-mail: Rael22 a@aol. com,
Tel: 812-365-9708
20

